  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


   Logistics Information Systems Need to Be 

    Strengthened at the Federal Emergency 

              Management Agency





OIG-08-60                            May 2008
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      May 28, 2008

                                      Preface

The Department of Homeland Security Office of Inspector General was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared
as part of our oversight responsibilities to promote economy, efficiency, and effectiveness
within the department.

This report addresses how well the Federal Emergency Management Agency manages
information technology to support disaster response logistics activities. It is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our
hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 



Executive Summary .............................................................................................................................. 1


Background……………. ...................................................................................................................... 2


Results of Audit……. ........................................................................................................................... 6


          Existing IT Systems Do Not Support Logistics Activities Effectively..................................... 6


          FEMA’s Efforts to Improve Logisitics Systems..................................................................... 13


          Recommendations................................................................................................................... 17


Management Comments and OIG Evaluation……………………………………………………….18

Appendices
     Appendix A:         Scope and Methodology......................................................................................... 20 

     Appendix B:         Management Response to the Draft Report ........................................................... 22 

     Appendix C:         Major Contributors to this Report .......................................................................... 27 

     Appendix D:         Report Distribution................................................................................................. 28 


Abbreviations
     ADD                        Automated Deployment Database
     CIO                        Chief Information Officer
     Corps                      United States Army Corps of Engineers
     DHS                        Department of Homeland Security
     FEMA                       Federal Emergency Management Agency
     FOSA                       Federal Operational Staging Area
     GAO                        Government Accountability Office
     GPS                        Global Positioning System
     IRRIS                      Integrated Response and Recovery Information System
     IT                         Information Technology
     LIMS                       Logistics Information Management System
     LMD                        Logistics Management Directorate
     LMTI                       Logistics Management Transformation Initiative
     LOG-CONOPS                 Incident Logistics Concept of Operations
     OIG                        Office of Inspector General
     TAV                        Total Asset Visibility
     TPM                        Trading Partner Management
     WM                         Warehouse Management
Table of Contents/Abbreviations 



Figures 

   Figure 1   FEMA’s Logistics Management Directorate .......................................................... 3 


   Figure 2   FEMA Offices and Facilities Locations ................................................................. 4 


   Figure 3   FOSA at Camp Beauregard, Louisiana, August 8, 2006 ........................................ 7 


   Figure 4   FEMA Distribution Center, Atlanta, Georgia....................................................... 10 

OIG 

Department of Homeland Security
Office of Inspector General
Executive Summary
                     We audited FEMA’s efforts to improve the information systems used to
                     support its disaster response logistics processes. The objectives of this
                     audit were to (1) determine how effectively existing and proposed
                     information technology systems improve the coordination of disaster
                     logistics management activities; and (2) assess the adequacy of FEMA’s
                     strategies, plans, and procedures for acquiring and developing an
                     efficient, transparent, and flexible logistics system. The scope and
                     methodology of this review are discussed in Appendix A.

                     FEMA’s existing information technology systems do not support
                     logistics activities effectively. Specifically, the systems do not provide
                     complete asset visibility of disaster goods, such as commodities and
                     property, from their initial shipment to final distribution in disaster areas.
                     The systems also do not provide comprehensive asset management;
                     instead, several systems must be used to order, ship, and account for
                     disaster goods. Additionally, the systems are not integrated and,
                     therefore, cannot share information during disaster response. As a result,
                     FEMA may be hindered in its ability to perform disaster response in an
                     effective and timely manner.

                     FEMA has taken a number of positive steps to improve its logistics
                     capabilities by developing a planning strategy and gathering independent
                     evaluations of its technology and operations. These efforts will enhance
                     FEMA’s ability to assess its existing systems, identify its information
                     technology system requirements, and select the appropriate technologies
                     to meet its logistics needs.

                     We are recommending that the FEMA Administrator direct the Logistics
                     Management Directorate to finalize its logistics strategic and operational
                     plans to guide logistics activities; develop standard business processes
                     and procedures for logistics activities; evaluate current technologies; and
                     develop a strategy for acquiring information technology systems to
                     support the logistics mission.




    Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                 Page 1

Background
                            The Federal Emergency Management Agency (FEMA) is responsible for
                            developing a federal response capability that can act effectively and rapidly to
                            deliver essential assistance. FEMA is responsible for saving lives and
                            protecting or preserving property, and public health and safety in a natural
                            disaster, act of terrorism, or other manmade disaster. In 2005, FEMA
                            experienced significant challenges responding to hurricanes Katrina and Rita.
                            The difficulty of responding to these hurricanes served as a catalyst for
                            changes in federal policy and the organization of responsible federal entities,
                            notably within the Department of Homeland Security (DHS) and in particular
                            within FEMA.

                            Following the 2005 hurricane season, the Congress passed the Post-Katrina
                            Emergency Management Reform Act of 2006.1 Under the Act, FEMA became
                            a distinct entity within DHS, with the FEMA Administrator reporting directly
                            to the Secretary of DHS. The Act required FEMA to lead and support the
                            Nation in a comprehensive emergency management system of preparedness,
                            protection, response, recovery, and mitigation. It further required FEMA to
                            develop an efficient, transparent, and flexible logistics system for procurement
                            and delivery of goods and services during disasters, and to improve the
                            information technology (IT) systems that support FEMA’s logistics activities.

                            In response to the Act, FEMA recognized disaster logistics as one of its core
                            competencies, and it elevated logistics from a branch within its response
                            division to a directorate. Leadership of the new Logistics Management
                            Directorate (LMD) reports directly to FEMA’s Administrator. LMD’s
                            mission is to effectively plan, coordinate, manage, and provide national
                            logistics response and recovery operations in support of domestic emergencies
                            and special events. LMD has identified four specific core competencies
                            necessary to accomplish its mission:

                                •    Logistics plans and exercises;
                                •    Logistics operations;
                                •    Distribution management; and
                                •    Property management.

                            As illustrated in Figure 1, LMD is structured to reflect its focus on these
                            competencies.



1
    Public Law 109-295, Title VI, October 4, 2006.


          Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                       Page 2

                                                           Logistics Management
                                                          Directorate, Office of the
                                                          Assistant Administrator




                           Office of Logistics
                                                                                                 Executive
                          Transformation and
                                                                                             Coordination Group
                                Initiatives




                     Business            Distribution         Logistics Plans           Logistics          Property
                    Management          Management             & Exercises             Operations         Management
                      Division            Division               Division               Division            Division


                 Figure 1: FEMA’s Logistics Management Directorate

                 LMD’s Office of Logistics Transformation and Initiatives is the focal point
                 for researching, recommending, and integrating logistics transformation
                 initiatives to enhance FEMA’s disaster logistics mission. The Executive
                 Coordination Group coordinates, facilitates, and processes replies to
                 Congressional and other requests for information. Logistics functions are
                 organized into five LMD divisions:

                 •	 Business Management – Responsible for human capital management, as
                    well as budget, program, and analysis activities.
                 •	 Distribution Management – Manages FEMA warehouse facilities and
                    transportation systems used to store, maintain, issue, distribute, and track
                    supplies, services, material, and equipment.
                 •	 Logistics Plans and Exercises – Develops and provides logistics plans and
                    exercises to achieve both short- and long-term readiness requirements.
                 •	 Logistics Operations – Manages and executes the command and
                    coordination, tracking, and reporting for all hazards operations.
                 •	 Property Management – Provides management, internal control, and
                    technical services for accountability, reutilization, and disposal of
                    FEMA’s personal property assets.

                 To support logistics activities, FEMA maintains eight permanent distribution
                 centers, five of which are spread throughout the country with three centers
                 located outside of the continental United States. These centers receive, store,
                 ship, and recover disaster commodities, such as water and ready-to-eat meals,
                 and property, such as the computers and office electronic equipment that are
                 issued to responders and field facilities during disaster response. In addition,
                 FEMA maintains an Emergency Housing Distribution and Logistics Center
                 that provides additional storage and distribution capabilities for commodities.
                 Figure 2 shows the location of these facilities.


Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                                 Page 3
                                                                                                                                        Ri c o
                                                                                                                               Pu e rto Ri
                                                                                           Fre d e ri c k, M D
                                                                              C u m be rrll a n d ,M
                                                                                                  ,M D


                     M o ffe tt
                             tt F
                                Fie
                                  ield,                                               B e rry vvii l e , VA
                            CA
                                                                                                                   He a d qu a rte
                                                                                                                               rt e rs




                          Ha w a i


                                                        Fo rt W o rth ,TX
                                                                      , TX



                                                                                                                       Legend
                                                                                                                       Leg end
                                                                                                                 Regi onal O ff ice

                                                                                                                 Dis tri buti on Cen ter

                                                                                                                 Em erg ency Ho us inging
                                                                                                                 Dis tri buti on an d L ogi st ics
                                                                                                                 Cen ter




                 Figure 2: FEMA Offices and Facilities Locations

                 FEMA relies on several IT systems to support its unique inventory and
                 process needs, including:

                 •	 Logistics Information Management System III (LIMS) is the system of
                    record for personal property accountability requirements. Personal
                    property includes items such as computers, cell phones, generators, and
                    office furniture.

                 •	 Total Asset Visibility (TAV) contains a group of IT systems that support
                    logistics activities. The program includes the following systems:

                                     o	 eTasker is a web-based system that field personnel use to submit
                                        requests for property and commodities to FEMA headquarters. It
                                        also coordinates information for requests that involve
                                        transportation requirements.

                                     o	 Trading Partner Management (TPM) facilitates and tracks the
                                        movement of property and commodities from the time they are
                                        ordered through fulfillment and shipping. The system manages
                                        orders from all regions, links order information with shipment


Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                                     Page 4
                                     details, tracks specific sets of physical inventory, logs receipt of
                                     shipments at distribution centers and other regional sites, and
                                     provides updated shipment information to track changes in
                                     receiving locations.

                                 o	 Warehouse Management (WM) manages the inventory of goods
                                    stored at the distribution centers by recording the amount of items,
                                    such as generators, cots, and bottled water, that are on-hand. WM
                                    is currently deployed in only two distribution centers—Atlanta and
                                    Fort Worth.

                                 o	 OrbiTRAX provides the location information for global
                                    positioning system (GPS) transponders that are attached to FEMA
                                    trailers or certain FEMA items, such as generators.

                                 o	 Integrated Response and Recovery Information System
                                    (IRRIS) is an internet-based mapping application that allows users
                                    to view the location of in-transit trailers equipped with GPS
                                    devices from the time they leave distribution centers until arrival at
                                    staging areas. IRRIS uses shipment information supplied through
                                    TPM and location details supplied through OrbiTRAX.

                        •	 Automated Deployment Database is used to identify and maintain a
                           record of the personnel deployed during disasters to whom property items,
                           such as cell phones and laptops, are issued.

                        In September 2005, we reported that FEMA needed an improved resource
                        tracking system with real-time capabilities. We also reported that the systems
                        did not support effective or efficient coordination of deployment operations
                        because they did not share information. We recommended that FEMA
                        analyze alternatives and determine the most appropriate approach to providing
                        the technology needed to support business and system requirements.2 Further,
                        in March 2006, we reported that FEMA lacked standard operating procedures
                        in resource ordering, had an inefficient and ineffective system for tracking
                        requests, and the same information was entered into at least three tracking
                        systems that were not linked.3




2
  DHS OIG, Emergency Preparedness and Response Could Better Integrate Information Technology with Incident

Response and Recovery, OIG-05-36, September 2005. 

3
  DHS OIG, A Performance Review of FEMA’s Disaster Management Activities In Response to Hurricane Katrina, 

OIG-06-32, March 2006. 



       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                    Page 5

                          In May 2007, the Government Accountability Office (GAO) reported that
                          FEMA should address five areas of logistics management for an effective
                          logistics system:
                              •	 Requirements – FEMA did not have operation plans to address disaster
                                  scenarios, nor did it have detailed information on states’ capabilities
                                  and resources;
                              •	 Inventory Management – FEMA’s ability to track supplies in-transit
                                  was limited;
                              •	 Facilities – FEMA had little assurance that it maintained the right
                                  number of facilities in the right places;
                              •	 Distribution – Problems included poor transportation planning,
                                  unreliable contractors, and lack of distribution sites; and
                              •	 People – Human capital issues were pervasive, including in the
                                  logistics area.4

                          GAO noted that FEMA was taking many actions to transition its logistics
                          program to be more proactive, flexible, and responsive, but that it would be
                          several years before these areas were fully implemented and operational.

Results of Audit
Existing IT Systems Do Not Support Logistics Activities Effectively
                          The Post-Katrina Emergency Management Reform Act of 2006 requires
                          FEMA to develop a logistics system that provides visibility of disaster goods
                          from procurement to delivery.5 The Act also instructs FEMA to ensure that
                          existing IT systems are compatible and share information. Additionally, other
                          federal guidance directs agencies to select IT investments that will support
                          core mission functions.6

                          FEMA’s existing systems do not meet the requirements of the Post-Katrina
                          Emergency Management Reform Act and do not support its core disaster
                          response functions effectively. Specifically, the systems do not provide
                          complete asset visibility, comprehensive asset management, or integrated
                          information during disaster response. Without effective IT support for its


4
  U.S. Government Accountability Office, Homeland Security: Observations on DHS and FEMA Efforts to Prepare for 

and Respond to Major and Catastrophic Disasters and Address Related Recommendations and Legislation, GAO-07-
835T, May 15, 2007. 

5
  Public Law 109-295, Title VI, October 4, 2006. 

6
  Circular A-11, Part 7, Planning, Budgeting, Acquisition, and Management of Capital Assets, Executive Office of the 

President, Office of Management and Budget, July 2007. 



       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                       Page 6

                         logistics activities, FEMA may be hindered in its ability to perform disaster
                         response in an effective, timely manner.

                         Complete Asset Visibility

                         FEMA’s logistics systems do not provide visibility over disaster goods, such
                         as commodities and property, throughout the entire shipment process.
                         Specifically, the systems do not track shipments end-to-end, from the initial
                         shipment of goods to final distribution in disaster areas. Further, the systems
                         do not track shipments of disaster goods received from all FEMA partner
                         agencies. To perform these functions, FEMA personnel are using alternate
                         methods, such as ad hoc IT systems and paper forms. As a result, FEMA
                         employees expend unnecessary time and effort to track, receive, and ship
                         disaster goods, and cannot manage the deployment of goods effectively.

                                 Systems Do Not Track Shipments to Points of Distribution

                         FEMA’s logistics systems do not track disaster goods from initial shipment to
                         final delivery. To support disaster response activities, FEMA stores disaster
                         goods in its distribution centers. During disaster response, the goods are
                         shipped from these facilities, or from other vendors, to federal operational
                         staging areas (FOSA), as pictured in Figure 3.7 After receiving the goods at
                         the FOSA location, FEMA personnel ship them to state facilities or points of
                         distribution, where they are distributed to disaster victims.




                         Figure 3: FOSA at Camp Beauregard, Louisiana, August 8, 2006


7
 FOSAs are identified as National Logistics Staging Areas, or NLSAs, in LMD’s draft Logistics Management
Operations Manual.


       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                     Page 7

                 Although the order tracking system, TPM, tracks disaster goods shipped from
                 FEMA distribution centers to FOSAs, it does not track the goods once
                 received at the FOSAs or when they are shipped from the FOSAs to state
                 facilities or other points of distribution. Instead, FEMA field personnel rely
                 on paper transfer forms to track the goods. During the Hurricane Katrina
                 response, one FOSA generated over 20 boxes of paperwork to log the transfer
                 of goods to state facilities or points of distribution.

                 Because the shipments are not tracked in TPM, the information on what has
                 been received at or shipped from a FOSA is not readily available for FEMA
                 managers to monitor. One regional official said that, historically, FEMA has
                 lost track of water once it reaches the state level because it is difficult to
                 monitor the paper transfer orders. To monitor the shipments, FEMA
                 management have contacted field personnel regularly during disasters to
                 determine the status of shipments. As a result, FEMA personnel spend time
                 and effort to complete, store, and report information on FOSA inventory and
                 shipments.

                 To eliminate the time-intensive paperwork process and better track FOSA
                 shipments, FEMA field personnel developed the eFOSA system, which they
                 use to:

                     •   Receive shipments at the FOSA from FEMA and FEMA partners;
                     •   Maintain an inventory of trailers and their contents; and
                     •   Arrange and track shipments from the FOSA to points of distribution.

                 FEMA’s Emergency Management Institute has provided training on eFOSA
                 and distributed a Microsoft Access version of the database to many field
                 personnel. However, eFOSA does not operate on the FEMA network; it
                 provides information on the disaster goods only at an individual FOSA.
                 Therefore, during disaster response, FEMA logistics managers cannot readily
                 obtain complete information on the inventory and shipments of goods from
                 multiple FOSAs.

                 FEMA has tasked a contractor to upgrade the TPM system so that it can track
                 the shipments of goods from FOSAs to points of distribution by June 2008.
                 However, according to the contractor, although TPM is capable of performing
                 this function, the upgrade will make the system slower and less user-friendly
                 because FEMA personnel will have to wait for the system to load lengthy lists
                 of shipment locations and then navigate through those to process a shipment.




Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 8
                         Systems Do Not Track Goods Provided by External Partners

                 FEMA’s logistics systems do not track disaster goods provided by all external
                 partners. During disaster response, FEMA acquires goods and services from
                 partners, including federal and nonfederal organizations, to supplement its on-
                 hand stocks. For example, during preparations for Hurricane Dean in August
                 2007, the United States Army Corps of Engineers (Corps) prepared to provide
                 ice, water, tarps, and temporary power. Similarly, during response to the
                 California wildfires in late 2007, the American Red Cross provided cots to
                 disaster victims.

                 However, the existing logistics IT systems, specifically TPM, do not provide
                 visibility of goods that are shipped to FOSAs from the Corps, American Red
                 Cross, or state partners. To track the goods, FOSA managers have used paper
                 copies of bills of lading or maintained spreadsheets with information on the
                 shipments. More recently, they have begun to use eFOSA.

                 Because FEMA is not tracking electronically the goods received from
                 partners, FEMA managers cannot use the TAV systems to view, receive, or
                 ship these goods to disaster sites. Unaware of incoming shipments from
                 FEMA partners, FEMA field personnel could place duplicate orders for
                 disaster goods.

                 FEMA has begun to place GPS transponders on trucks carrying shipments
                 from FEMA partners to provide greater visibility for those shipments. In
                 addition, FEMA is working with certain partners, such as the Corps and
                 American Red Cross, to have their shipment information input into TPM.

                 Comprehensive Asset Management

                 Logistics activities are further challenged because FEMA lacks a
                 comprehensive system to account for its commodities, such as water and
                 tarps, and its property, such as generators and cell phones. As a result, FEMA
                 warehouse personnel must enter many goods into multiple systems, which
                 may hinder their ability to receive and ship items quickly during disaster
                 response.

                 FEMA personnel use two separate systems to account for commodities and
                 property. They use LIMS to track the quantity and value of FEMA property,
                 the location of the property, and the personnel to whom it has been issued.
                 They use the WM system to determine the quantity of goods within a
                 distribution center. When distribution center personnel receive a shipment of
                 property, they access both LIMS and WM to accept the property into the


Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 9
                 distribution center. Similarly, when distribution center personnel are shipping
                 property from the warehouse, such as a kit of furniture and supplies for a field
                 office, they are required to scan and log the items into both LIMS and WM.
                 When a distribution center enters property into LIMS, the value of those items
                 is assigned to the center or the shipment location. Entering shipments into
                 WM adds or subtracts the quantity from the store of disaster goods available
                 in the warehouse.

                 Because FEMA has implemented the WM system at only two of its eight
                 distribution centers, WM contains information on a limited amount of goods.
                 Therefore, FEMA does not have electronic access to inventory information for
                 most of its distribution centers. Instead, distribution centers without the WM
                 system rely on a combination of LIMS and spreadsheets to manage inventory.
                 In addition, FEMA does not have electronic access to shipments between all
                 of its distribution centers. For example, distribution center personnel can
                 manage shipments between the two distribution centers that are using WM.
                 However, when a distribution center that uses WM receives goods from a
                 distribution center that does not, FEMA personnel must manually enter
                 shipment and receipt information.




                 Figure 4: FEMA Distribution Center, Atlanta, Georgia

                 Without a comprehensive system, FEMA personnel must spend extra time and
                 effort to manage goods. For example, when distribution center personnel
                 prepare a kit of furniture and supplies for a field office, it requires numerous
                 steps to complete the shipment. Personnel identify the goods to ship, package
                 them, and then prepare a paper transfer report to document the shipment.
                 Although the goods may leave the distribution center at that point, the systems


Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 10
                 do not log the transfer until warehousing specialists manually enter the
                 information into LIMS and the TAV systems, including WM. According to
                 distribution center personnel, when staffing is low, the time-consuming
                 paperwork and data entry forces them to choose between updating LIMS or
                 the TAV systems. If information in these two systems is not current, FEMA
                 management may not have an accurate account of the goods that are available
                 for disaster response.

                 As of December 2007, FEMA had placed the implementation of the WM
                 system into the remaining distribution centers on hold. A program manager
                 explained that FEMA will not invest funds to implement WM at all of the
                 distribution centers until it has determined its long-term plans for system
                 development. Further, senior LMD officials stated that they are considering
                 replacing LIMS with an integrated commercial system to provide property
                 accountability.

                 Integrated Logistics Systems

                 Several FEMA IT systems used for disaster logistics activities are not
                 integrated and, therefore, cannot share information. Specifically, the eTasker
                 ordering system and the TPM order tracking system do not share information
                 about disaster goods orders. Further, the FEMA personnel tracking system,
                 ADD, does not share information with the property management system,
                 LIMS. As a result, FEMA personnel use multiple IT systems to complete
                 response activities, requiring extra time and effort and potentially delaying
                 disaster response.

                         Logistics Ordering Systems Are Not Integrated

                 The eTasker ordering system and the TPM order tracking system do not share
                 information electronically. FEMA field personnel request disaster goods
                 using the eTasker system. Commodity managers at FEMA headquarters
                 receive these requests, enter the information into TPM, and select a location
                 from which to ship the supplies. The commodity managers must then
                 manually enter the shipment information from TPM, such as the shipping
                 location and order number, into eTasker.

                 Without integration, commodity managers must move back and forth between
                 the eTasker and TPM systems, manually reentering data to complete an order.
                 This process can hinder the delivery of disaster goods, since an order is not
                 finalized and transmitted to a warehouse or distribution center for fulfillment
                 until both eTasker and TPM have been updated.



Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 11
                        Further, a warehouse official said that these systems, lacking integration and
                        relying on manual entry, may contain errors or different pieces of information
                        about an order. Because shipment and delivery of disaster goods relies on
                        timely, accurate orders, warehouse staff must verify the accuracy of
                        information for each order in eTasker, TPM, and WM. When the ordering
                        process is time-consuming or orders are inaccurate, disaster response can be
                        delayed. Several FEMA officials we spoke with said that integrating existing
                        systems, including the TAV systems, should be a priority for FEMA.

                        The TAV program office has developed a plan for improving logistics
                        systems by June 2008. This plan will provide the basis for integration of the
                        TAV systems, such as WM and TPM, with other logistics systems, such as
                        LIMS. However, FEMA does not plan to integrate the individual TAV
                        systems as part of this plan. FEMA personnel continue to rely on the
                        nonintegrated eTasker, TPM, and WM systems for disaster response activities.

                                 FEMA Personnel and Property Systems Are Not Integrated

                        FEMA has not integrated other systems supporting logistics activities. FEMA
                        accounts for personnel and property at disaster sites and field offices using the
                        human resources system, ADD, and the property accountability system,
                        LIMS. As we reported in September 2005, ADD and LIMS were not
                        integrated and this hindered FEMA from providing the appropriate number
                        and combination of people and supplies to meet disaster needs.8 As of
                        December 2007, these systems still were not integrated.

                        Without an interface between the two systems, disaster personnel must
                        complete several different steps to manually check-in and obtain property. In
                        addition, disaster personnel are able to check out of a disaster site using ADD
                        without returning the property that was issued to them at that location through
                        LIMS. FEMA personnel agreed that a link between the two systems could
                        minimize losses by requiring personnel to return all property before they
                        could check out of a location.

                        To fill the information sharing gaps between the existing personnel and
                        property accountability systems, field personnel developed a solution.
                        Contractors hired by regional officials created OneStop, a platform that could
                        interface the personnel information in ADD and property information in
                        LIMS. OneStop would automate the process of checking in and obtaining
                        property at disaster or field locations. OneStop could also provide the

8
 DHS OIG, Emergency Preparedness and Response Could Better Integrate Information Technology with Incident
Response and Recovery, OIG-05-36, September 2005.


       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                   Page 12

                           oversight necessary to hold personnel accountable for the property they
                           receive at a disaster site. However, regional officials explained that the
                           system is not being used widely because it has not received the necessary
                           support and buy-in for continued development from logistics officials in the
                           ADD and LIMS program offices.

                           While the ADD program office and the LIMS program office have made
                           updates and improvements to the individual systems, they have not
                           coordinated to develop an interface between the two systems. Therefore,
                           although the FEMA Chief Information Officer (CIO) considers this interface
                           an existing requirement, officials from the CIO office, the LIMS program
                           office, and the ADD program office all said that there are no plans for
                           development of this interface. FEMA officials attributed the inaction to the
                           need for additional funding to cover the costs of gathering requirements and
                           user needs.
FEMA’s Efforts to Improve Logistics Systems
                           FEMA has made efforts to improve its logistics IT systems by developing a
                           logistics planning strategy and conducting evaluations of its operations and
                           technology. As of early 2008, FEMA was working to finalize its logistics
                           strategic planning documents. As part of its planning efforts, FEMA is
                           considering the recommendations provided in a number of logistics
                           assessments. These efforts will enhance FEMA’s ability to assess its existing
                           systems, identify its IT systems requirements, and select the appropriate
                           technologies to meet its logistics needs.

                           FEMA is Making Progress with Logistics Strategic Planning

                           Federal guidance requires agencies to prepare a strategic plan for program
                           activities that includes a detailed description of how goals and objectives are
                           to be achieved, as well as details on the operational processes and information
                           technology needed to meet immediate and long-term goals.9 Such plans are
                           intended to provide a basis for further defining program efforts in a program
                           plan.

                           LMD has made progress in defining and documenting its strategic direction.
                           Specifically, LMD has developed a logistics planning strategy that calls for
                           developing three levels of logistics plans: strategic, operational, and tactical.
                           At the time of our audit, LMD had drafted two of these plans: the FEMA
                           Incident Logistics Concept of Operations (LOG-CONOPS) and a Logistics
                           Management Operations Manual.

9
    Government Performance and Results Act of 1993, Public Law 103-62, 1993.


         Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                      Page 13

                 The LOG-CONOPS establishes how logistics will be accomplished for all
                 hazards and throughout all incident phases. It is intended to provide the
                 strategic management framework from which specific plans, procedures, and
                 technology architecture are developed. It describes FEMA’s logistics mission
                 and identifies the specific roles and responsibilities for establishing,
                 maintaining, and executing agency-wide logistics plans, policies, and
                 procedures, as well as the development of agency-wide logistics information
                 management and communications capabilities. It will set forth FEMA’s
                 supply chain management approach, as well as the strategies to support
                 logistics operations.

                 The Logistics Management Operations Manual contains FEMA’s vision and
                 mission for serving as the lead federal agency responsible for logistics
                 emergency management. It describes how FEMA and its public and private
                 sector partners will provide logistics support to disaster victims. The manual
                 defines logistics emergency management roles and responsibilities, and
                 describes the strategies and processes for accomplishing logistic functions
                 during disasters.

                 These strategic and operational plans will provide a framework with which
                 FEMA can establish its logistics goals, objectives, and priorities, and identify
                 the technology needed to support them. However, the plans are still in draft
                 and not complete. The lack of strategic direction in finalized plans has
                 hampered FEMA’s ability to define and document standard processes and
                 operating procedures for logistics activities.

                 FEMA Has Undertaken Initiatives for Long-Term Improvement

                 The issues discussed in this report have been longstanding problems for
                 FEMA, and the new LMD management has expressed its commitment to
                 address them. In addition to focusing its efforts on developing logistics plans
                 and strategies, LMD management has taken steps to transform the logistics
                 process by conducting a number of independent evaluations of logistics
                 operations and supporting IT systems.

                         Logistics Organizational Assessment

                 In January 2007, a contractor delivered its assessment of FEMA’s current
                 logistics operations. The report concluded that FEMA had made great strides
                 in its use of IT to support logistics processes. However, it also identified
                 short-term and long-term recommendations for logistics IT improvement.
                 Specifically, in the short-term, the assessment suggested that FEMA upgrade


Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 14
                 its poorly integrated, point solutions to a cohesive, planned logistics
                 information system.

                 Further, the report stated that long-term IT solutions should consider existing
                 systems and ensure visibility of commodity inventories by state, other federal,
                 and private sector enterprises. The assessment concluded that FEMA needed
                 to better define its logistics objectives and improve its partnerships with
                 external organizations. The report recommended that FEMA define its
                 disaster logistics strategy, including a finalized CONOPS.

                         TAV Assessment

                 The TAV program office, with assistance from a contractor, assessed FEMA’s
                 logistics technologies in September 2007. The report stated that TAV
                 provides strong integration capabilities to support future requirements, and
                 that many issues could be resolved with standardization of business processes,
                 the lack of which results in limited asset visibility.

                 The report recommended that FEMA:
                    •	 Engage regions in establishing standardized processes and data sharing
                        among systems;
                    •	 Delineate between property management and supply chain 

                        management; 

                    •	 Develop the resources to reduce reliance on contractors;
                    •	 Implement selected interfaces; and
                    •	 Resolve the overlap between the systems.

                         Logistics Management Transformation Initiative

                 In September 2007, after receiving the results of the previous studies, LMD
                 took additional steps to develop long-term plans by contracting for a
                 comprehensive assessment of FEMA logistics planning, processes, and
                 technology. This assessment, referred to as Logistics Management
                 Transformation Initiative (LMTI), included an evaluation, inventory, and
                 analysis of FEMA logistics operations. Logistics officials intend for LMTI to
                 help develop a long-term strategy that would transform FEMA’s business
                 process functions and identify IT development opportunities.

                 In its report issued in January 2008, the consultant said that FEMA logistics
                 does not have a formal planning process to develop response scenarios, tailor
                 its response capabilities, and determine service and performance levels. The
                 report explained that planning activities develop a basis for program efforts
                 and processes, as well as establish requirements for response activities.


Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 15
                 In addition, the report stated that FEMA logistics has operated with an ad hoc
                 approach and without standard processes, and FEMA has not provided the
                 systems and processes necessary to effectively respond to disasters. The
                 report suggested that FEMA could reduce extra time and effort by adopting
                 standard processes for receiving goods at disaster sites and returning goods to
                 warehouses or distribution centers.

                 Moreover, the report explained that FEMA has not benefited from new
                 technologies or IT systems because it lacks standard logistics processes. For
                 example, FEMA has invested in industry-best software, such as the WM
                 system, but its warehouse personnel still perform many manual activities.

                 The LMTI assessment identified several challenges with the current IT
                 logistics systems. The report discussed several issues similar to those
                 identified during our review, including the lack of integration among existing
                 logistics systems. Specifically, the LMTI assessment stated that a lack of
                 integration or interfaces created weaknesses for eTasker, eFOSA, WM, and
                 LIMS. Further, when systems do not interface effectively, FEMA cannot
                 provide accurate information or improve the speed of disaster response
                 efforts. In addition, the report stated that FEMA IT development efforts have
                 been disjointed, resulting in a reliance on manual processes or isolated spot IT
                 solutions. The report recommended that LMD document its core business
                 functions and plan for IT systems to support these functions.

                 Senior LMD officials are evaluating the LMTI report to determine the
                 appropriate next steps. These officials said that the LMTI assessment, unlike
                 previous assessments, adequately considered the challenges of FEMA’s
                 disaster readiness and response mission. Specifically, FEMA and its
                 contractor recognize that the agency must continue to respond to disasters
                 throughout the logistics transformation process. Once LMD has evaluated the
                 LMTI recommendations, the contractor will develop a detailed plan to
                 implement them.




Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 16
Recommendations
                     We recommend that the Administrator of the Federal Emergency
                     Management Agency direct the Director of the Logistics Management
                     Directorate to:

                         •	 Recommendation #1: Finalize its logistics, strategic, and operational
                            plans to guide logistics activities.

                         •	 Recommendation #2: Develop, communicate, and implement
                            standardized processes and procedures for logistics activities.

                         •	 Recommendation #3: Evaluate current IT systems to determine their
                            ability to support logistics operations.

                         •	 Recommendation #4: Based on the results of the evaluation, develop
                            a strategy for acquiring IT systems to support the logistics mission.




    Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                Page 17

                 Management Comments and OIG Evaluation

                 We obtained written comments on a draft of this report from FEMA’s
                 Logistics Management Directorate through the Director of the Office of
                 Policy and Program Analysis. We have included a copy of the comments in
                 their entirety in Appendix B.

                 In the comments, the directorate concurred with all of the findings in our
                 report and provided details on ongoing efforts to address the report
                 recommendations. The directorate also acknowledged that our findings are
                 consistent with the external assessment contracted to review logistics support
                 operations in FEMA. In response to each of our report recommendations, the
                 directorate summarized progress and outlined approaches for strengthening
                 information systems in FEMA by the end of fiscal year 2010. Overall, the
                 directorate has decided to address four core objectives to meet mission needs
                 and provide logistics support: people; customers; processes; and systems.
                 Specifically, FEMA will seek a professional workforce, develop permanent
                 and professional relationships with stakeholders, outline and document key
                 business processes, and modernize FEMA logistics systems. We believe that
                 such efforts are good steps toward mitigating the various issues we raised in
                 our report and look forward to learning more about continued progress and
                 improvements in the future.

                 Responding to Recommendation 1, the directorate commented that it
                 continues to address planning issues by completing draft strategic documents
                 and meeting with internal and external stakeholders. Specifically, the
                 directorate has developed standard operating procedures for hurricane support,
                 a draft concept of operations for logistics support, and additional planning
                 toward its desired role as National Logistics Coordinator. FEMA also has
                 developed a strategic transformation vision for achieving the role of National
                 Logistics Coordinator. In addition, in March 2008, the directorate sponsored a
                 National Logistics Coordination conference with participants from industry
                 and federal, state, and local governments. During this conference, participants
                 outlined and discussed a national strategy for logistics support. Further, the
                 Assistant Administrator, Deputy Assistant Administrator, and division chiefs
                 have met with disaster response stakeholders to discuss new logistics support
                 strategies.

                 In response to Recommendation 2, the directorate stated that conference calls
                 and workgroups are establishing and communicating processes and
                 procedures and expects this to be an ongoing effort as the directorate matures
                 and becomes fully staffed. Specifically, the directorate commented that it has
                 started to communicate standardized processes and procedures to regional


Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 18
                 offices and personnel through conferences and weekly conference calls. In
                 addition, a Distribution Management Strategy Workgroup develops
                 partnerships with federal logistics stakeholders and the TAV Cadre program
                 trains specialists to assist in asset visibility processes.

                 The directorate has addressed Recommendation 3, which directed FEMA to
                 evaluate current IT systems and support, and, as a result, has begun to address
                 Recommendation 4 by developing a strategy for acquiring sufficient IT
                 support. In the comments, the directorate explained that existing systems
                 were put into place before current leadership. Following on the results of a
                 September 2007 internal assessment and a March 2008 meeting with the
                 FEMA CIO and Logistics Management Chief, the Assistant Administrator has
                 made a recommendation to transition logistics support to two fully integrated
                 systems.

                 The response to Recommendation 4 outlined the directorate’s strategy for this
                 IT support transition. Specifically, the directorate will utilize DHS’ standard
                 property system, the Sunflower Asset Management System for property
                 valued over $5,000. At the same time, the Assistant Administrator for
                 Logistics has recommended that the existing TAV system be supplemented to
                 manage asset tracking and financial accountability for commodities, such as
                 meals, water, and tarps. Further, the directorate comments that, within the last
                 30 days, the CIO has obtained funding to begin these transitions. Although
                 the directorate explains that system links and integration are necessary, staff
                 are working toward a common goal of transitioning to the new systems by the
                 end of fiscal year 2010.




Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                            Page 19
Appendix A
Scope and Methodology


                        As part of our ongoing responsibility to assess the efficiency, effectiveness,
                        and economy of departmental programs and operations, we conducted an
                        audit of FEMA’s disaster logistics systems. The objectives of our audit were
                        to determine:

                           •	 The efficacy of FEMA’s strategies, plans, and procedures for
                              acquiring and developing an efficient, transparent, and flexible
                              logistics system for procuring and delivering goods and services
                              during emergency response, and
                           •	 How effectively existing and proposed IT systems improve the 

                              coordination of disaster logistics. 


                        To establish criteria for this review, we researched U.S. laws, regulations, and
                        other federal guidance applicable to FEMA disaster logistics. Documentation,
                        such as media articles and press releases obtained through internet searches,
                        provided background information on FEMA logistics and identified specific
                        concerns and issues. Additionally, we reviewed prior reports and
                        congressional testimony by the White House, Congressional, DHS OIG,
                        GAO, and industry organizations to identify their findings and
                        recommendations related to FEMA’s disaster logistics.

                        We met with representatives from LMD, to learn about their roles,
                        responsibilities, and activities related to logistics. Senior FEMA officials
                        provided briefings on the structure of the new directorate and the systems used
                        to manage inventory and its supply chain. The Assistant Administrator for
                        Logistics discussed his vision, goals, and priorities for the new directorate.
                        We also met with representatives from FEMA’s Office of Information
                        Technology Services to learn how they are assisting LMD to develop and
                        implement IT systems.

                        During the course of our review, we conducted site visits to two FEMA
                        Regions, Regions IV and VI, which we selected based on disaster activity and
                        whether they had implemented the TAV program. At each location, we
                        interviewed representatives of the FEMA Regional Office, Distribution
                        Centers, and stakeholders. These interviews assisted in our understanding of
                        the logistics process, IT systems used, and the involvement of users to develop
                        requirements for systems. In addition, we evaluated FEMA’s implementation
                        of the TAV program, its requirements, capabilities, and overall usefulness.

                        We also interviewed FEMA stakeholder representatives from the American
                        Red Cross, Army Corps of Engineers, and the Georgia Emergency
                        Management Agency. These officials offered their perspectives on FEMA
                        logistics, interactions with FEMA personnel, and strategies for providing the


      Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                                  Page 20
Appendix A
Scope and Methodology


                        necessary disaster support. These officials also discussed their respective
                        missions during disasters and the lack of IT interfaces to support their
                        missions.

                        We conducted our audit from October 2007 through April 2008 at FEMA
                        headquarters in the Washington, D.C. metropolitan area, as well as in FEMA
                        Region IV (Georgia), and Region VI (Texas). We performed our work
                        according to generally accepted government audit standards. The principal
                        OIG points of contact for this audit are Frank Deffer, Assistant Inspector
                        General, Information Technology Audits, and Richard Harsche, Director,
                        Information Management Division. Other major contributors are listed in
                        Appendix C.




      Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                  Page 21

Appendix B
Management Response to the Draft Report




       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                   Page 22

Appendix B
Management Response to the Draft Report




       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                   Page 23

Appendix B
Management Response to the Draft Report




       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                   Page 24

Appendix B
Management Response to the Draft Report




       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                   Page 25

Appendix B
Management Response to the Draft Report




       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                   Page 26

Appendix C
Major Contributors to this Report




                 Information Management Division

                 Richard Harsche, Director
                 John Shiffer, Audit Manager
                 Kristina Hayden, Auditor
                 Kia Smith, Auditor
                 Robert Durst, Referencer




       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency

                                                   Page 27
Appendix D
Report Distribution



                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 Chief of Staff
                 Deputy Chief of Staff
                 General Counsel
                 Executive Secretariat
                 Assistant Secretary for Policy
                 Assistant Secretary for Legislative Affairs
                 Assistant Secretary for Public Affairs
                 DHS Chief Information Officer
                 Federal Emergency Management Agency, Administrator
                 Federal Emergency Management Agency, Audit Liaison
                 Federal Emergency Management Agency, Chief Information Officer
                 Federal Emergency Management Agency, Director, Logistics Management
                 DHS GAO/OIG Liaison Office


                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS Program Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees, as appropriate




       Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency


                                                   Page 28

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    E-mail us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
